           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


       THE SOCIAL SECURITY
       ADMINISTRATION’S USE
       OF DEPORTATION DATA


   June 2005        A-14-04-24077




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                            SOCIAL SECURITY
MEMORANDUM


Date:   June 10, 2005                                                                        Refer To:

To:     The Commissioner

From:   Inspector General

Subject: The Social Security Administration’s Use of Deportation Data (A-14-04-24077)



        OBJECTIVE
        The objective of our audit was to determine how effectively the Social Security
        Administration (SSA) used deportation data to identify and stop payments to individuals
        who were deported from the United States (U.S.). To achieve our objective, we
        examined the process and data that SSA relies on to control payments to deported
        beneficiaries.

        BACKGROUND

        Each month, the U.S. Citizenship and Immigration Services (USCIS),1 a component of
        the Department of Homeland Security, notifies SSA of individuals deported from the
        U.S. This notification is required by the Social Security Act (Act)2 and applies to
        individuals deported under specified provisions of the Immigration and Nationality Act
        (INA) of 1990.3

        The Division of Employer Services (DES) in SSA’s Office of Central Operations (OCO)
        receives the USCIS deportation list monthly. It verifies the Social Security number
        (SSN) and identity of each individual shown as deported on the USCIS list, and
        searches for a correct SSN if one is incorrect or missing. Once DES verifies the SSN,
        the OCO Annual Wage Reporting (AWR) staff inputs the deportation information to
        SSA’s Disability, Railroad, Alien and Military Service (DRAMS) data base. Because the
        Act prohibits SSA from paying Social Security benefits to certain individuals deported
        from the U.S., SSA uses the deportation data to prevent unlawful benefit payments.


        1
            Formerly known as the Immigration and Naturalization Service under the Department of Justice.
        2
            The Social Security Act § 202(n)(2), 42 U.S.C. § 402(n)(2).
        3
            Pub. L. No. 104-208, § 237(a) (1997).
Page 2 - The Commissioner


SSA is required to stop payments to Social Security beneficiaries4 beginning with the
first month after SSA is notified of their deportation by USCIS.5 Additionally, SSA is
required to stop payments to Supplemental Security Income recipients for any full
calendar month they are outside the United States.6

As of July 1, 2003, DRAMS contained 207,391 deportation records. In May 2004, SSA
implemented an automated process to receive and verify deportation information, and
USCIS now provides that information on electronic media.

SAMPLING METHODOLOGY
To determine how effectively SSA manages deportation data, we reviewed applicable
deportation laws and regulations, as well as relevant SSA policies and procedures. We
interviewed appropriate SSA personnel and examined the detailed functional
requirements of recent software enhancements, which affect the processing of
deportation data. While our audit focused on how well SSA identifies and stops
payment to individuals shown as deported, we also examined controls over the DRAMS
deportation process.

We reviewed 5 percent of DRAMS deportation records. We first obtained all DRAMS
deportation records, then arranged them into 20 segments in numerical order using the
last 2 digits of the SSN. This process duplicated SSA’s standard procedure for creating
a segment that can be used to estimate an entire file.7 We selected 1 of the
20 segments for review and it contained 10,348 deportation records. To evaluate the
10,348 records, we obtained information from other SSA data bases (for more details
see Appendix B).

RESULTS OF REVIEW
Although SSA has taken positive steps to automate the process it uses to manage
DRAMS deportation data, audit results indicate that additional steps should be taken to
ensure the integrity of DRAMS data so that the Agency has reliable data on which to
base eligibility decisions. We found the following data anomalies that, on the surface,
suggest errors in SSA’s handling of records involving deported individuals. For
example, DRAMS deportation records suggest the following conditions exist:

•     Beneficiaries are mistakenly shown as deported.


4
    SSA Program Operations Manual System (POMS) SI 02310.018.
5
    The Social Security Act § 202(n)(2), 42 U.S.C. § 402(n)(2).
6
    Social Security Act § 1611(f)(1), 42 U.S.C. § 1811(f)(1)
7
 Records are sorted by the last 2 digits of the SSN (i.e. 00-04, 05-09, 10-14, etc.). For our review, we
used the seventh segment of DRAMS or records where the SSN ended in 30-34.
Page 3 - The Commissioner


•     The Agency has given individuals credit for wages earned after notice of deportation.
      At times, SSA assigns SSNs to individuals shown as deported and then identifies
      them as U.S. citizens.
•     SSA does not always record deportations reported by USCIS.

We believe these questionable data integrity conditions exist for the following three
reasons:

•     Deportation records are omitted or not recorded correctly when untrained and
      inexperienced DES staff manually verifies deportation data before keying the
      information into DRAMS.
•     The deportation process has few control and follow-up procedures to ensure that
      deportation alerts either suspend benefits or, if appropriate, remove deportation
      records from DRAMS.
•     SSA does not routinely reconcile DRAMS deportation data with information in other
      SSA data bases to identify and resolve data discrepancies.

INACCURATE DEPORTATION RECORDS FOR BENEFICIARIES

Based on our analysis of the 10,348 DRAMS deportation records since 1973, SSA has
either recorded incorrect information on DRAMS, or paid benefits to individuals shown
as deported. If DRAMS deportation records are incorrect, SSA employees cannot rely
on the information to determine benefit eligibility. According to the Act,8 certain
individuals deported from the U.S. under INA rules are ineligible to receive benefits
beginning with the first month after SSA is notified of the deportation.

Table 1 reflects the results of our analysis of 119 beneficiaries whose DRAMS
deportation records suggest that individuals were receiving benefits after being
deported. For 11 of the 119 cases, the Agency suspended or terminated benefits as a
result of deportations. Additional analysis of the remaining 108 cases demonstrated the
questionable integrity of deportation data in DRAMS. This analysis included our review
of Systematic Alien Verification for Entitlement records USCIS routinely sends to SSA,
and SSA’s review of the 108 cases. The reviews showed deportation or a temporary
visitor status and possible benefit ineligibility for only 5 of the 108 cases. For some of
the other deportation cases, subsequent review showed a change in immigration status
and that SSA’s deportation records are incorrect. They showed lawful admission to the
U.S. for 39 of the 108 cases, and U.S. citizenship for 26 other cases. SSA recorded the
wrong SSN on DRAMS for 35 individuals. We were able to find the correct SSNs for
5 of the 35 individuals. Three of the 108 individuals were receiving dependent or
survivor benefits on another individual’s record after deportation. These auxiliary
beneficiaries are exceptions to payment suspension in accordance with SSA policy.9

8
    Social Security Act, § 202(n)(1)(A), 42 U.S.C. § 402(n)(1)(A).
9
    SSA, POMS RS 02635.001, § D.4.
Page 4 - The Commissioner



                         Table 1. INDIVIDUALS SHOWN AS DEPORTED
                                                        Recorded as              Estimated
                                                         Deported in             Deported
                 USCIS Reported Status10
                                                        One Segment          Individuals for 20
                                                         of DRAMS                Segments
           Deported or Temporary Visitor and
                                                                   5                         100
           Possibly Ineligible for Benefits
           Exempted Auxiliary Beneficiary                          3                          60
           U.S. Citizens11                                        26                         520
           Lawfully Admitted and Allowed to
                                                                  39                         780
           Work
           Wrong Identity/SSN on DRAMS                           35                         700
                          Subtotal:                             108                       2,160
           Suspended/Terminated as a Result of
                                                                  11
           Deportation
                       Total Records                            119


POST-DEPORTATION EARNINGS AND DATA ACCURACY

Since 1953, SSA has recorded on its Master Earnings File an estimated $10.6 billion in
post-deportation earnings for approximately 69,000 individuals shown as deported on
DRAMS. Individuals who are shown as being deported and have covered earnings
after deportation continue to earn credits toward future Social Security benefits.12

From the DRAMS deportation segment we analyzed, we found that SSA recorded
approximately $530 million in post-deportation earnings for 3,450 of 10,348 individuals
(for details see Appendix D). However, because of the questionable integrity of DRAMS
deportation data, we cannot determine if, in fact, the individuals were deported when
these wages were posted to their earnings records. Although this data suggests that
individuals shown as deported in DRAMS may be working in the U.S. illegally, they
could be working outside the country for a U.S. company, or their immigration status
may be incorrect in DRAMS.

The security problem implied—that non-citizens are in the U.S. illegally—should
encourage SSA and USCIS to work together to determine the correct immigration status
of individuals shown as both working and deported.


10
  From these other data bases, (e.g., Numerical Identification or Numident and Systematic Alien
Verification for Entitlement), we assessed immigration status as recorded on SSN applications and
immigration status reports, respectively.
11
  According to the USCIS, deported individuals can be naturalized citizens who had their citizenship
revoked.
12
     Social Security assigned an SSN not authorized for work to only 32 of the 3,450 deported individuals.
Page 5 - The Commissioner


DEPORTATION AND ENUMERATION DATA ACCURACY

In analyzing DRAMS deportation cases, records suggest that SSA assigned individuals
4 original SSNs and issued 322 replacement SSN cards after recording their
deportation. However, when assigning the SSNs, SSA categorized these individuals as
U.S. citizens on its NUMIDENT13 data base. The inconsistency between DRAMS and
the Numident raises concerns about the integrity of DRAMS data. Enumeration records
showing U.S. citizenship for individuals listed as deported on DRAMS, particularly
records established after notice of deportation, further demonstrate that SSA needs to
either do a better job of removing erroneous deportation records from DRAMS, or
correct its SSN records. If SSA employees cannot rely on DRAMS deportation data,
they will have difficulty working deportation alerts and determining whether an individual
is eligible to receive benefits. In addition, Social Security applicants who are correctly
identified as U.S. citizens on SSN records, but incorrectly recorded as deported on
DRAMS, may experience unnecessary delays when applying for Social Security
benefits. The deportation records will alert SSA to their incorrect immigration status,
and SSA’s ensuing review may delay their Social Security benefit applications.

DEPORTATIONS GO UNRECORDED

Before May 2004, USCIS sent SSA paper listings of persons recently deported from the
U.S. Now, it provides electronic records. In June 2004, SSA began using an
automated enumeration process to verify the SSN and the identity shown on the
deportation record. Like USCIS paper submissions, we estimate that approximately
84 percent of the electronic deportation records will not include a valid SSN.

For each deportation record that is submitted without an SSN, or with an incorrect SSN,
SSA conducts an electronic search to identify the correct SSN assigned to the
individual, if any. Based on SSA’s experience with USCIS paper records, the electronic
search will have limited success. If the correct SSN is not identified through the
automated search, SSA will not revert to its previous deportation procedures and have
DES employees perform a manual search for the individual’s correct identity and SSN.

USCIS sent 14,635 deportation records to SSA in 12 separate paper listings from
February 2002 through April 2003 (for details see Appendix E). To review the USCIS
records, we selected the third record on the first, middle and last page of each of the
12 listings—36 records in all. Because each page we selected contained 5 deportation
records, the 36 pages listed 180 total records. We found USCIS either reported an
incorrect SSN or no SSN for 152 (84 percent) of the 180 records.

The 36 records we selected for review had been screened by SSA’s manual verification
procedures. While DES staff purportedly located and/or verified SSNs for 16 of the
36 records, they were unable to locate SSNs for the remaining 20 records. We found
that 3 of the 16 verified SSNs belonged to someone other than the individual listed on
13
 The NUMIDENT data base is a result of SSA’s enumeration process. When individuals apply for an
SSN, SSA staff assigns an SSN and records information from the application on the NUMIDENT.
Page 6 - The Commissioner


the deportation record. Because the wrong SSN was recorded on DRAMS, SSA would
not detect deportation for these individuals if they filed for benefits using different,
possibly their own correct, SSNs. We searched USCIS records and located a correct
SSN for one of the three individuals.

We also searched USCIS immigration records and located SSNs for 2 of the 20 records
that were missing an SSN. The missing SSNs prevented SSA from recording the
deportation information on DRAMS. Again, the two individuals shown as deported could
fraudulently file for SSA benefits and go undetected.

In summary, the DES manual process for verifying incoming deportation records did not
record information correctly in 5 of the 36 cases we examined. Even though SSA has
automated part of this process, errors similar to the ones we found will continue to occur
if SSA uses manual verification.

INCOMPLETE DEPORTATION PROCESS

SSA’s new system for processing USCIS deportation records electronically matches
those records with SSA enumeration records. This match attempts to verify the
individual’s SSN and identity. However, it does not compare citizenship status on the
deportation and enumeration records to identify and help resolve data discrepancies.
Also, it does not electronically match deportation records to USCIS immigration records
to verify the deportation status or possibly locate SSNs for records missing an SSN.

Manual Verification Procedures

We found insufficient controls over the DES manual verification process. DES
employees, who manually verified deportation records only when other workloads were
not backlogged, need additional training and experience. For example, DES frequently
had a student intern read the printed deportation records and compare them to
enumeration records to identify and verify SSNs. If, in the intern’s judgment,
demographic information on the deportation record did not match enumeration data, the
record was crossed out. If the intern believed that the information matched, he or she
wrote “OK” and the verified SSN next to the printed record. DES sent marked-up
listings to AWR staff to input records into SSA systems and ultimately the DRAMS data
base. Procedures did not require the intern to check USCIS immigration records to
confirm the individual’s SSN or current immigration status.

Controls over Deportation Alerts

The enumeration verification process creates output files that SSA systems use to
establish incoming USCIS deportation records in DRAMS. SSA systems use the
incoming records to search the Master Beneficiary Record and Supplemental Security
Record (SSR) to detect benefit payments. If benefit payments are detected, automated
alerts are sent to appropriate SSA field office staff to verify the need to suspend
Page 7 - The Commissioner


payments. There are two alert processes, one controlled by the Payment Center Action
Control System and the other by the SSR. Neither provides automated feedback to
SSA systems on the resolution of the alerts, nor do they initiate routine updates to
DRAMS.

SSA has no automated procedures to follow up on deportation alerts when benefits
continue months after field office staff are sent a deportation alert. Follow-up alerts are
not produced. SSA relies on employee judgment and manual procedures in
determining whether deportation records should be removed from DRAMS. When SSA
field staff identifies situations that involve a change in deportation status, such as a
mistaken identity or a beneficiary/recipient who is now in the U.S. legally, they are
required to prepare an administrative message and request deletion of the DRAMS
record.14 The administrative message is sent to a systems analyst in SSA
headquarters. The analyst has to manually control the deletion request and send it to
the AWR staff responsible for deleting the DRAMS deportation record.

Reconcile Data Base Records

SSA does not, on an ongoing basis, reconcile existing DRAMS deportation records with
its enumeration or USCIS immigration records. If SSA did this, it would help verify
individuals’ current status and ensure data integrity. Currently, SSA routinely compares
deportation records with other data bases when the records are received or, on an
individual basis, when someone files for benefits. SSA has no procedures, however, to
capture changes in immigration status across time, after individuals are established as
deported on DRAMS.

CONCLUSIONS AND RECOMMENDATIONS
Although SSA has automated part of the process it uses to manage DRAMS
deportation data, additional steps should be taken to ensure the integrity of DRAMS
deportation data so that the Agency has reliable data on which to base eligibility
decisions. Strengthening controls over that process to improve data accuracy would
help ensure that SSA’s handling of cases involving notice of deportation does not
involve inappropriate benefit payment to deported individuals or credit for wages earned
after deportation. Because conditions we found are indicative of unresolved
deportations, a potential homeland security issue, SSA needs to resolve DRAMS
discrepancies so those responsible for managing the deportation process can rely on
DRAMS to determine whether individuals are in the U.S. illegally, and how their
immigration status will affect their benefits.




14
     SSA, POMS RS 02635.020.
Page 8 - The Commissioner


We recommend SSA:

1. Ensure that only experienced and trained personnel manually verify incoming
   deportation records, and that all appropriate SSA data bases are used in the
   verification effort.

2. Establish procedures to ensure that deportation alerts and requests to delete
   deportation records are resolved timely.

3. Use SSN and immigration data to routinely identify inaccurate deportation records,
   and develop procedures to remove them from DRAMS.

4. Work with USCIS to determine the current status of individuals in the 108 sample
   cases from our review. Based on the results of the 108 cases, take appropriate
   action to identify and resolve similar cases in the remaining 19 segments of SSA’s
   records.

AGENCY COMMENTS
SSA agreed with recommendations 1, 2 and 4. Regarding recommendation 3, while the
Agency agreed with the goal of the recommendation, it did not believe that this
approach was necessary or cost effective.




                                               S
                                               Patrick P. O’Carroll, Jr.
                                      Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Analysis of One Segment of Deportation Data on DRAMS

APPENDIX D – Analysis of Earnings after Deportation

APPENDIX E – U.S. Citizenship and Immigration Services Report of Deported
              Individuals

APPENDIX F – Agency Comments

APPENDIX G – OIG Contacts and Staff Acknowledgments
                                                               Appendix A
Acronyms
ACT         The Social Security Act

ALPHIDENT   Alphabetical Identification

AWR         Annual Wage Reporting

DES         Division of Employer Services

DHS         Department of Homeland Security

DRAMS       Disability, Railroad, Alien and Military Service

GAO         Government Accountability Office

INA         Immigration and Nationality Act

NUMIDENT    Numerical Identification

OCO         Office of Central Operations

POMS        Program Operations Manual System

SSA         Social Security Administration

SSR         Supplemental Security Record

SSN         Social Security number

U.S.        United States

USCIS       United States Citizenship and Immigration Services
                                                                               Appendix B
Scope and Methodology
To help determine how effectively the Social Security Administration (SSA) uses
deportation data to stop payments to beneficiaries shown as deported, we:

1. Reviewed applicable deportation laws and regulations as well as SSA policies and
   procedures pertaining to those laws. We also interviewed appropriate SSA
   personnel and reviewed documentation of SSA software enhancements that affect
   the processing of deportation data. This consisted of detailed functional
   requirements for the new deportation process.

2. Sorted Disability, Railroad, Alien and Military Service data base (DRAMS)
   deportation records by Social Security number (SSN) into national segmentation
   order (i.e. 00-04, 05-09, 10-14, etc.). From the sorted records, we selected and
   reviewed 1 of the 20 segments as of July 1, 2003, which is a standard SSA practice
   and representative of the entire deportation file.

3. Our segment contained 10,348 deportation records. For each record, we obtained
   data from the Master Beneficiary Record, Master Earnings File, Supplemental
   Security Record, and Numerical Identification (NUMIDENT).1 We did this to
   determine whether: a) benefits were paid after SSA received notice of deportation,
   b) the individual was working in the U.S. after the date of deportation, or c) SSA
   enumeration records showed a legal immigration status for the individual shown as
   deported. Of the 10,348 records:

      ¾ 9,664 individuals shown as deported had either never filed for benefits, or had
        filed and never received benefits;
      ¾ 440 individuals shown as deported were allowed by operation of law2 to receive
        benefits after deportation;
      ¾ 11 individuals shown as deported had their benefits stopped when SSA received
        notice of deportation;
      ¾ 125 individuals shown as deported had their benefits stopped before SSA
        received notice of deportation; and
      ¾ 108 individuals were shown as deported and also receiving benefits after
        deportation. If these deportation records were correct, the individuals’ benefits
        should have stopped.



1
    NUMIDENT data base contains information on individuals who have been assigned SSNs.
2
    The Social Security Act § 202(n)(1)(A), 42 U.S.C. 402(n)(1)(A).


                                                     B-1
4. We obtained current immigration records from the Department of Homeland Security
   (DHS) for the 108 individuals to substantiate their immigration status.

5. We selected 36 individuals from 12 separate deportation “input records” that DHS
   provided on paper listings to SSA over a 15-month period. We selected the third
   entry from the first, middle and last page of each of the 12 paper listings. We then
   searched for each of 36 deportation records on DRAMS, NUMIDENT, Alphabetical
   Identification (ALPHIDENT)3 and DHS’ Systematic Alien Verification for Entitlement
   data bases to determine how accurately SSA recorded the deportation information
   and to identify valid SSNs for records marked “Unable To Locate.”

To meet the objectives of our review, we assessed the reliability of DRAMS deportation
data and determined that there are problems with the accuracy of the data. Our audit
recommendations detail steps that SSA can take to improve data reliability. We audited
components within the SSA Office of Systems and Office of Operations at SSA
Headquarters in Baltimore, Maryland, between September 2003 and July 2004. We
conducted the audit in accordance with generally accepted government auditing
standards.




3
    ALPHIDENT data base contains NUMIDENT information that is accessed using individual names.




                                                 B-2
                                                                                   Appendix C
Analysis of One Segment of Deportation Data
on Disability, Railroad, Alien and Military
Service           1




         United States Citizenship                     Individuals            Estimated
         and Immigration Services                       Shown as          Individuals Shown
         (USCIS) Reported Status                        Deported             as Deported2
           Deported or Temporary
                                                             5                     100
         Visitor and Benefit Ineligible
              Exempted Auxiliary
                                                             3                      60
                   Beneficiary
            United States Citizens                          26                     520
            Lawfully Admitted and
                                                            39                     780
               Allowed to Work
        Wrong Identity/Social Security
        Number (SSN) on Disability,
                                                            35                     700
           Railroad, Alien, Military
              Services (DRAMS)
                    Subtotal                               108                    2,160
        Suspended/Terminated as a
                                                            11
            Result of Deportation
        Suspended/Terminated Prior
                                                           125
                 to Deportation
             Total Paid Benefits                           244
         Legally Entitled to Continue
           Receiving Benefits after                        440
                  Deportation3
         Never Received Payments                          9,664
                 Total Sample                            10,348                   2,160

1
 We used 5 percent of the DRAMS data base for our sample. To create segments, we prearranged and
stored the earnings records in chronological order using the last 2 digits of the SSN. This duplicated a
standard Social Security Administration procedure which allows a segment to estimate the entire file.
2
    Projected segment (5 percent) findings to entire population of DRAMS (Number x 20 segments).
3
 There were 440 individuals recorded on the DRAMS segment who had filed for benefits but were
deported for reasons that would not stop benefits. Because the Social Security Act, § 202(n)(1)(A),
stipulates that benefits do not stop for individuals deported under certain USCIS categories, the
440 individuals were not included in our analysis.
                                                                     Appendix D
Analysis of Earnings after Deportation

Records Where Earnings Were Recorded in Years after Deportation


         Table 1
                                    Number of
             One Segment                           Projection to All Segments
                                    Segments


         3,4501    $529,643,055         20         69,000     $10,592,861,100



1
    $529,643,055/3,450 = $153,519.73 average earnings after deportation by deportees.
                                                                                         Appendix E
United States Citizenship and Immigration
Services Report of Deported Individuals
                                                                 Verified
                                                                                 SSN
                                                               the Wrong
                                Total                                           Located         Total
                                                 Entries         Social
      Report Period          Deportation                                         for a          Errors
                                                Reviewed        Security
                              Records                                           Missing       Identified
                                                                Number
                                                                                 SSN1
                                                                  (SSN)

      February 2002                1,355             3

         April 2002                   260            3

         May 2002                     295            3

         June 2002                    920            3               22                             2

         July 2002                  1000             3               1                              1

       August 2002                 1,520             3                               1              1

     September 2002                1,225             3                              1               1

       October 2002                1,560             3

     November 2002                    930            3

      February 2003                1,225             3

        March 2003                 2,585             3

         April 2003                1,760             3

           Totals                 14,635            36               3               2              5




1
 Social Security Administration staff did not identify and record the deported individual’s SSN on
Disability, Railroad, Alien, and Military Services.
2
    Office of the Inspector General staff located the correct SSN for one of the two deported individuals.
                  Appendix F

Agency Comments
                                        SOCIAL SECURITY

MEMORANDUM                                                                      33364-24-1190


           May 9, 2005                                                          Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, "The Social Security Administration's Use
           of Deportation Data" (A-14-04-24077)--INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report
           recommendations are attached.

           Please let me know if you have any questions. Staff inquiries may be directed to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                        F-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "SOCIAL SECURITY ADMINISTRATION'S USE OF DEPORTATION
DATA" (A-14-04-24077)

Thank you for the opportunity to review and comment on the draft report. We are pleased that
the results of this review found no evidence of widespread erroneous payments of Retirement,
Survivors and Disability (RSDI) benefits or Supplemental Security Income (SSI) payments.
Additionally, as indicated in the response to recommendation number 4, our review of the
sample cases indicates that we have been effective in stopping payments to individuals who have
been deported.

We acknowledge that the deportation information in the Disability, Railroad, Alien and Military
Service (DRAMS) database may not be current in some cases. The information contained in
DRAMS is not solely related to our current beneficiaries and recipients. We have never relied
on DRAMS deportation data for determining eligibility, rather as an indicator of possible
ineligibility. Further, the stated objective of this review was “to determine how effectively the
Social Security Administration (SSA) used deportation data to identify and stop payments to
individuals who were deported from the United States,” not to evaluate the accuracy of the data
contained in the DRAMS. Since we do not solely use DRAMS data to verify alien status or
citizenship, we must evaluate the cost-effectiveness of any additional resource commitments to
improve the data.

To address deportation data inaccuracies resulting from the limited interface with other SSA
systems, effective May 2004, we implemented an automated process to receive and verify
deportation information. The United States Citizenship and Immigration Service (USCIS),
Department of Homeland Security (DHS), now provides that information on electronic media.
The data is then matched electronically with our databases to generate deportation alerts.

Our responses to the specific recommendations are provided below.

Recommendation 1

SSA should ensure that only experienced and trained personnel manually verify incoming
deportation records, and that all appropriate SSA data bases are used in the verification effort.

Response

We agree. Implementation of an automated system in May 2004 has greatly reduced the number
of cases requiring manual action. A system is currently being planned that will put cases falling
out of the automated system though a secondary automated verification system. This second
automation effort will virtually eliminate the need for any manual input.

Recommendation 2

SSA should establish procedures to ensure that deportation alerts and requests to delete
deportation records are resolved timely.


                                                F-2
Response

We agree. In May 2004, we began processing deportation alerts for SSI recipients
electronically. Under the new process, deportation alerts for SSI recipients are controlled by a
limited issue diary. The field office gives priority attention to these diaries. We believe this new
procedure will ensure the timely processing of SSI deportation alerts.

Recommendation 3

Use SSN and immigration data to routinely identify inaccurate deportation records, and develop
procedures to remove them from DRAMS.

Response

While we agree with the goal of this recommendation, we do not believe this approach is
necessary or cost effective. Currently deportation alerts are issued to SSA field offices only as
an indicator that an individual receiving Social Security benefits or SSI payments may have been
deported. Receipt of the alert prompts the field office employee to investigate the individual’s
current status and develop for possible ineligibility. The cases reviewed for this audit indicate
that our current system is effective in identifying individuals whose benefits should be
suspended due to deportation. We have never used the deportation data in the DRAMS database
to determine benefit eligibility as that data is used only as an indicator of possible ineligibility.
Since we use current evidence of citizenship or alien status to determine eligibility for benefits,
for payment or for an SSN, it would not be practical or cost effective for us to attempt to
maintain the DRAMS database as a record of current immigration status, especially since this
information is available through DHS’ Systematic Alien Verification for Entitlement (SAVE)
database.

Recommendation 4
SSA should work with USCIS to determine the current status of individuals in the 108 sample
cases from our review. Based on the results of the 108 cases, take appropriate action to identify
and resolve similar cases in the remaining 19 segments of SSA’s records.

Response

We partially agree and have already implemented the first part of the recommendation.
Specifically, of the 108 sample cases reviewed, only five were determined to be possibly in
deported status. The majority of these individuals were lawfully admitted to the U.S. subsequent
to the deportation, and some have become U.S. citizens. A further investigation of these cases
may show that fewer, or none, of the sample cases were actually in deported status. Based on the
findings from our review of these cases, we do not believe that a review of the remaining 19
segments is warranted.

[In addition to the items listed above, SSA provided technical and other comments which have been
addressed, where appropriate, in this report]




                                                 F-3
                                                                     Appendix G
OIG Contacts and Staff Acknowledgments
OIG Contacts

   Albert Darago, Acting Director, Data Analysis and Technical Audit Division
   (410) 965-9710

   Patrick Kennedy, Audit Manager, Mainframe Controls and Advanced Techniques
   (410) 965-9724

Acknowledgments

In addition to those named above:

   Thomas P. Tennant, Auditor-in-Charge

   Mike Atherton, IT Specialist

   Chuck Zaepfel, IT Specialist

   Annette DeRito, Writer/Editor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s
Public Affairs Specialist at (410) 965-3218. Refer to Common Identification
Number A-14-04-24077.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                  Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
